No. 21-312

In the Supreme Court of the United States
VOLKSWAGEN AKTIENGESELLSCHAFT, ET AL.,
Petitioners,
v.
OHIO, EX REL. DAVE YOST,
ATTORNEY GENERAL,
Respondent.

CERTIFICATE OF SERVICE
I, Nicole A. Saharsky, certify that on the 30th day of September, 2021, I caused
three copies of the Brief for the Product Liability Advisory Council, Inc. and the Motor
& Equipment Manufacturers Association as Amici Curiae in Support of Petitioners
to be served by mail on the following counsel:
Robert J. Giuffra Jr.
Sullivan & Cromwell
125 Broad Street
New York, NY 10004
(212) 558-3121
giuffrar@sullcrom.com

Benjamin Michael Flowers
Ohio Attorney General Dave Yost
30 E. Broad St.
Columbus, OH 43215
(614) 466-8980
benjamin.flowers@ohioattorneygeneral.gov

Counsel for Petitioners

Counsel for Respondent

I further certify that all parties required to be served have been served.

Dated: September 30, 2021

Nicole A. Saharsky
Mayer Brown LLP
1999 K Street, N.W.
Washington, DC 20006-1101
(202) 263-3000
nsaharsky@mayerbrown.com

